          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Special Inquiry Report
Review of Allegations Regarding
Prohibited Personnel Practices at
the Bonneville Power Administration




DOE/IG-0895                     October 2013
                                 Department of Energy
                                     Washington, DC 20585

                                        October 3, 2013

 MEMORANDUM FOR THE SECRETARY

 FROM:                    Gregory H. Friedman
                          Inspector General
 SUBJECT:                INFORMATION: Special Inquiry: "Review of Allegations
                         Regarding Prohibited Personnel Practices at the Bonneville Power
                         Administration"

BACKGROUND

The Department of Energy's Bonneville Power Administration (Bonneville) is a self-funding
entity that covers its costs by marketing wholesale electrical power from 31 Federal hydro
projects. It is responsible for operating and maintaining about three-fourths of the high-voltage
transmission in the Pacific Northwest. Bonneville's 3,100 employees represent 20 percent of the
Department's total Federal workforce.

On May 11, 2010, the President issued a memorandum, Improving the Federal Recruitment and
Hiring Process, requiring all executive Federal agencies to utilize a category rating hiring
approach. This approach was established to broaden the candidate selection pool while still
complying with merit system principles and other requirements of Title 5, United States Code,
including veterans' preference. The U.S. Office of Personnel Management (OPM) delegated
competitive hiring authority to the Department, and the Department in turn delegated this
authority to Bonneville. The Department is authorized by statute and delegated to Bonneville the
ability to issue announcements and hire current or former Federal employees through merit
promotion. Bonneville's Human Capital Management (HCM) staff members, responsible for
delegated examining actions, are required to be certified by OPM.

The Office of Inspector General received a complaint alleging prohibited personnel practices at
Bonneville. The allegations included violations of OPM regulations and the inappropriate
dismissal of veterans during their probationary period. The complaint also alleged violations of
Department policies regarding the application of veterans' preference and the use of the category
rating process in the exercise of Bonneville's delegated examining authority for competitive
hiring. Given the seriousness of the complaint, we initiated a special inquiry to determine the
facts and circumstances surrounding the allegations of prohibited personnel practices.

RESULTS OF SPECIAL INQUIRY

We found that Bonneville's hiring practices disadvantaged veterans and other applicants.
Bonneville's actions were inconsistent with concerted efforts by the Federal government to
ensure that veterans received appropriate preferential treatment in the hiring process.
Specifically, we found that:

   •   Bonneville consistently manipulated the applicant rating process. This practice involved
       modifying the "best qualified" category after all applications were received; actions that
                                                         2


        resulted in the inappropriate exclusion of veterans and other applicants from
        consideration for job selection. While a final determination has yet to be made,
        information provided by Bonneville revealed that these prohibited practices occurred in
        at least 117 of 240 cases (49 percent) 1 of recruitments conducted from November 2010 to
        June 2012.

    •   Despite specific requirements to do so, Bonneville did not fully disclose to the
        Department that the inappropriate personnel practices had occurred, nor did it disclose
        the adverse impact on veterans and other applicants.

    •   Bonneville neither notified the affected applicants nor did it initiate corrective actions
        required to remedy the inappropriate practices.

In addition to the serious problems in its category rating process, we discovered that Bonneville
disadvantaged at least one veteran by closing a delegated examining announcement and re-
announcing the position in such a way as to exclude the veteran from consideration. In this
particular case, Bonneville recruited for and subsequently referred a group of "best qualified"
candidates for a senior position to the selecting official. After conducting interviews, the
selecting official identified a candidate who he wished to select. At about that same time, the
category rating practices at Bonneville were exposed. HCM officials told us that they then
identified a veteran that would have been ranked as best qualified had the category rating process
been correctly applied. That veteran was then referred to the selecting official for consideration.
The selecting official decided, however, that the veteran was not qualified and indicated that he
did not wish to hire him. After being advised by an HCM staff member that the stated reason for
bypassing the applicant was insufficient to justify granting a waiver of the veteran's preference,
the selecting official elected to close the vacancy announcement and reopen it with additional
selection criteria that the veteran could not meet.

One of Bonneville's staff attorneys provided guidance that likely facilitated this action.
Specifically, the attorney's advice to an HCM official described how to modify the
announcement so that the veteran would be unlikely to qualify. The attorney also provided
advice on the risks associated with proceeding in that manner. The attorney noted that the
veteran might not reapply once the position was re-announced. Rather than providing general
advice regarding the propriety of closing announcements and reopening them with more
restrictive selection criteria, the guidance appeared to target the particular veteran that the
selecting official considered bypassing. Notably, the attorney opined that if the veteran did
reapply, it would have been difficult for the veteran to prevail under the new criteria. Bonneville
subsequently executed the plan and, as predicted, the veteran did not qualify. The selecting
official rationalized his decision to proceed in this manner by noting that it would have been
unfair to hire the veteran and then terminate him during his first year if he had been unable to do
the job. Recent reviews by both the Department and OPM found that Bonneville misused overly
restrictive qualifications to improperly eliminate qualified applicants from job consideration.
Thus, the case highlighted here may reflect a more extensive problem.




1
 Calculations of numbers of cases and impacted individuals listed throughout our report are based on best estimates.
We were unable to determine with absolute certainty exact statistics because of data integrity and record keeping
problems at Bonneville.
                                                3


                                      Contributing Factors

The management culture at Bonneville contributed to an environment that enabled the prohibited
practices to occur. Notably, we observed that Bonneville officials spent considerable effort
trying to distance the organization from Departmental procedures, processes and oversight. For
example, although Bonneville was required to comply with Department directives related to its
delegated human capital authorities, we found that Bonneville management officials considered
such policies to be unnecessary administrative burdens. Our review of emails and interviews
with Bonneville management confirmed that deflecting Departmental oversight was ingrained in
many aspects of Bonneville's human resources operation, and, that this practice had been the case
for many years.

Bonneville officials indicated they had not advised the Department of the extent of the prohibited
practices and, as a matter of general policy, would not report issues to the Department if
Bonneville officials felt they could handle the issues internally. This stance was taken despite
OPM regulations requiring reporting and immediate remedial actions in these and related
matters. Even when Bonneville did formally communicate the category rating problems to the
Department, nearly a year after the problems were first discovered, Bonneville failed to notify
impacted individuals, did not advise the Department that a large number of individuals had been
disadvantaged, and failed to indicate that significant remedial actions would be necessary.

Compounding problems associated with the general environment and culture, our inquiry
revealed that Bonneville exercised inadequate oversight and accountability of its own personnel
recruitment functions. Specifically, we found that Bonneville:

   •   Failed to ensure that there was sufficient Federal human resources experience within the
       ranks of HCM management;

   •   Did not adequately maintain or track training information for personnel specialists and
       was, as a result, unable to identify skill gaps;

   •   Relied on informal, undocumented practices to govern its category rating process; and

   •   Did not ensure that a safeguard designed to detect or prevent prohibited practices, the
       quarterly audit process, was properly implemented.

In short, there was a massive breakdown in procedures, processes and management attentiveness
at several levels of Bonneville's operation.

Bonneville's questionable human resources management practices were at the heart of the failure
to: (1) correctly execute the category rating process; (2) make appropriate and required
notifications to the Department and affected job applicants; and (3) take actions to address the
large volume of hiring errors that occurred in the 18 months preceding discovery. In fact,
Bonneville officials engaged in an active, months-long campaign to avoid reporting the impact of
the category rating problems, thereby delaying needed remedial actions.
                                                 4


In addition, there were obvious early warning signals and other indications that Bonneville may
have required enhanced monitoring of its hiring activities. Yet, we found that the Department's
Office of the Chief Human Capital Officer (Human Capital) had not adequately responded.
Department Order 328.1, Human Capital Management Accountability Program, establishes
requirements, roles and responsibilities for human resources programs and personnel to ensure
that human capital activities are compliant with Federal laws, regulations, and Department
policies. This directive required Human Capital to review hiring activities at Bonneville and to
ensure that identified deficiencies were resolved. However, we noted that Human Capital did not
ensure Bonneville implemented required corrective actions resulting from its 2010 Human
Capital Management Accountability Program audit, a review that identified systemic control
weaknesses with Bonneville's hiring actions, and its relevant policies and procedures. We also
observed that the Department did not intervene and compel compliance when Bonneville failed
to submit quarterly self-audits intended to ensure that personnel processing practices were
consistent with merit system principles and Department policies. Examination of these audits
would have revealed high error rates in various areas, specifically including failure to adhere to
veterans' preference requirements. Clearly, more aggressive actions on the Department's part
could have aided in preventing, or at least detecting, and remediating these problems at
Bonneville.

We also found that Bonneville refused to use the Department's common hiring information
system and that the Department acquiesced to this decision. Instead, Bonneville elected to
develop its own system that will cost up to $16 million for the contract period rather than using
the system that all of the Department's 17 other human resources offices were using at a
significantly lower cost. In addition to the financial impact to Bonneville's ratepayers,
Bonneville's decision not to use the Department's system impeded the Department's oversight
and monitoring.

Direct access to electronic case files would likely have allowed the Department to detect
prohibited practices and/or permit a more timely and thorough review of Bonneville's practices
once problems were discovered. Instead, the Department had to rely on the manual process of
copying and mailing hard copy case files to Headquarters. This practice amounted to an
antiquated, ineffective and inefficient approach to oversight that was vulnerable to manipulation
and abuse. In this regard, we found that Bonneville officials intentionally removed a number of
documents from the files prior to sending them to the Department. An HCM official told us that
he had been directed to send only documents that fell within the minimum file content
requirements when complying with Departmental requests for information. That manager stated
that he had expressed concern that all items were not being provided but was overruled by a
more senior HCM official.

                               Bonneville Management Assertions

Bonneville officials told us they were acting in good faith when they knowingly adjusted the
category rating threshold for the candidate "best qualified" lists. They asserted that this was
done only for expediency to reduce the candidate pool to manageable levels. In our view, this
explanation defied logic, most explicitly for cases where veterans were involved. In those cases,
veterans should have been at the top of the best qualified category in each instance. The pool of
applicants from which selections could have been made would therefore have been relatively
small, including only those with veterans' preference – clearly manageable levels.
                                                5


Bonneville officials also told us that their actions were influenced by their opinion that OPM and
Department guidance on category rating was subject to interpretation. In contrast, we found that
OPM and Department guidance on category rating clearly did not permit category rating
manipulations after the issuance of a job announcement. As such, the assertions by HCM
management regarding interpretations of the guidance were not credible in our judgment.
Nevertheless, HCM management officials relied on this position when deciding not to promptly
report and remediate category rating issues. It should also be noted that a Bonneville staff
attorney opined that the category rating manipulations were not permitted and this position was
in fact based on a "flagrant misstatement of law."

Finally, in both public statements and in our personal interviews, various Bonneville officials
stated that they would never take any action that would disadvantage those entitled to veterans'
preference. These statements notwithstanding, the practical impact of the widespread and
pervasive practice of manipulating the candidate rating process did precisely that. Further, as
they worked on the numerous recruitment actions completed during the 18-month period in
question, it strains credulity to believe that HCM staff and Bonneville's management chain failed
to recognize that veterans were being treated unfairly. We found Bonneville's insensitivity in
these matters to be disturbing.

                              Culture of Intimidation and Mistrust

Furthermore, Bonneville tolerated and/or failed to address what appeared to be a culture of
intimidation and mistrust in HCM. There is little doubt that the work environment undermined
efforts to make Bonneville fully compliant with relevant personnel policies and procedures.
During our inquiry, numerous current and former HCM employees told us that they had worked
in an environment of mistrust and that they feared retaliation if they had spoken out regarding
questionable personnel matters.

                                      Potential Retaliation

During our review we became aware that a number of HCM staff members who had previously
raised personnel-related concerns with Bonneville's management and Department officials and/or
had cooperated in our inquiry had been subjected to or had adverse personnel actions pending.
These actions included suspension, removal from Federal service, or placement on a
Performance Improvement Plan that could lead to an adverse personnel action. The most
egregious examples of questionable activity we observed were Bonneville's efforts to remove
both HCM staff members who initially questioned the category rating practice from Federal
service. In one case, action was purportedly taken because the individual implemented the
undocumented practice of manipulating the category rating process, potentially denying
preference to a veteran. Bonneville attempted to portray this as an isolated incident when, in
fact, a review commissioned by Bonneville itself revealed that there were a number of
individuals who had acted in a similar manner. This contradiction was inexplicable. When
asked why management had not considered this information, which was available more than a
month before the disciplinary proposal was completed, Bonneville officials stated they had not
read the details of the report.
                                                         6


In the second case, action was proposed to remove the other HCM staff member who had
questioned the category rating process as well as other hiring practices. We learned that senior
Bonneville managers were advised by the deciding official on the proposed removal action that
he was concerned that the alleged misconduct may not warrant removal and could be seen in a
negative light. Senior Bonneville managers ignored these concerns and permitted the removal
action to proceed, reportedly based on the advice of legal counsel. The action was taken despite
specific direction from the Department's Deputy Secretary to not take any retaliatory action
against Bonneville HCM whistleblowers. 2

Because of the urgency of these matters and the apparent likelihood of additional actions in the
near term, in July 2013, we issued a Management Alert, Allegations Regarding Prohibited
Personnel Practices at the Bonneville Power Administration, (DOE/IG-0891, July 2013). In
response to our report, the Department concurred with the facts and informed us that they had
already taken action to suspend Bonneville's authority to take adverse action against any
employee, to have Bonneville provide the Department with all information on any adverse action
in process or under consideration, and to instruct Bonneville to have any HCM employee who
was currently on administrative or any other leave type due to a proposed removal or suspension
return to work immediately.

                                          Impact and Path Forward

The impact of Bonneville's improper hiring practices is widespread, has subjected affected
individuals to economic consequences, has disrupted Department and Bonneville operations, and
has exposed the Department to a variety of legal challenges. Most importantly, adversely
impacted veterans, individuals who have made significant sacrifices and to whom the Nation has
committed to giving preference in Federal hiring, have not received promised benefits. Further,
based on the significant influx of complaints we have received regarding Bonneville's hiring
practices, there appears to be a significant loss of public trust in the organization.

The full impact of these matters will not be realized until Bonneville reconstructs each
recruitment case as required by the Department and OPM. To put the magnitude of this task in
context, it has been estimated that Bonneville will need to reconstruct at least 1,200 delegated
examining and merit promotion hiring case files representing approximately 22,000 applicants.
It should be noted that Bonneville's failure to promptly notify Human Capital about the results of
its internal review substantially delayed the identification of the full scope of the inappropriate
hiring practices and prevented timely corrective actions for the affected applicants.

Critically important human resources activities at Bonneville and the Department have been
significantly disrupted. In May 2013, after we began our inquiry, the certifications of HCM staff
that performed delegated examining hiring were revoked by OPM due to the volume of varied
and widespread errors identified during its review. Subsequent to OPM's revocation, Human
Capital temporarily suspended Bonneville's overall delegated examining and merit promotion
authorities. Human Capital noted that these actions were taken because its reviews identified
consistently improper hiring practices resulting in inappropriate hires and violations of veterans'
preference. The Department also found that there were major errors in the vast majority of files



2
 An individual who makes a disclosure of a violation of law, rule, or regulation to management, the Office of
Inspector General, or members of Congress could be considered a whistleblower.
                                                 7


reviewed. In August 2013, OPM issued its final report, noting that it had identified serious
systemic problems that resulted in many cases of erroneous disqualification of applicants and
lost considerations for selection, affecting both veterans and non-veterans. In August 2013, the
Department suspended all of Bonneville's remaining human resources authorities. Finally, the
Department completed a management review of Bonneville on August 22, 2013, and identified
concerns consistent with the findings outlined in our report.

The Department has initiated corrective actions to ensure disadvantaged applicants, including
veterans, receive appropriate consideration as required and also to facilitate the restoration of
Bonneville's staff certifications and hiring authorities. Corrective actions will be exceedingly
costly. As of September 2013, the Department estimated it will cost about $1.7 million through
Fiscal Year 2014 for Department and contractor staff to reconstruct and/or review approximately
1,200 delegated examining and merit promotion cases. Additionally, in August 2013, Bonneville
entered into an agreement with OPM to reconstruct 400 of those delegated examining and merit
promotion case files at a cost of approximately $925,000. Subsequent to the completion of its
review, Bonneville will be required to complete a variety of remedial actions to provide relief to
individuals impacted by its inappropriate practices. Bonneville will also incur costs of about
$180,000 to train its HCM staff for OPM recertification. In total, the immediate costs to quantify
the extent of the problem and design corrective action, not including the actual costs needed to
remedy the erroneous appointments and discriminatory practices, will likely exceed $3 million –
a cost that will have to be absorbed in large part by Bonneville's ratepayers.

While the Department's corrective actions taken as of the date of our report are noteworthy, more
needs to be done to ensure that the actions are sustained. To address the issues identified in this
report, we have made a number of recommendations intended to ensure affected veterans receive
the preference to which they are entitled and that all applicants are fairly treated. Our
recommendations should also assist the Department with ensuring that Bonneville administers
and manages its Human Capital function in accordance with Federal regulations and Department
policy, and that Bonneville employees feel free to raise issues of concern without fear of
retaliation.

MANAGEMENT COMMENTS

In a September 20, 2013, memorandum, the Department expressed its concurrence with the
facts presented, the conclusions reached and the recommendations provided in this report. The
Department's corrective actions, taken and planned, were fully responsive to our findings and
recommendations. In addition, we also received informal comments from Bonneville that were
submitted through the Department. While Bonneville agreed with the recommendations, it did
not concur with some of the findings presented in the report. Bonneville's concerns and our
responses are addressed in the body of our report. The Department's comments are included as
Appendix 3.

Attachment

cc: Deputy Secretary
    General Counsel
    Chief Human Capital Officer
    Chief of Staff
SPECIAL INQUIRY: REVIEW OF ALLEGATIONS REGARDING
PROHIBITED PERSONNEL PRACTICES AT THE BONNEVILLE
POWER ADMINISTRATION


TABLE OF
CONTENTS


Bonneville's Hiring Practices

Details of Finding                                 1

Recommendations                                    22

Management Reaction and OIG Response               23


Appendices

1.   Objective, Scope and Methodology              25

2.   Prior Report                                  27

3.   Management Comments                           28
REVIEW OF ALLEGATIONS REGARDING PROHIBITED PERSONNEL
PRACTICES AT THE BONNEVILLE POWER ADMINISTRATION

BONNEVILLE'S HIRING PRACTICES

We concluded that Bonneville Power Administration's (Bonneville) hiring practices effectively
disadvantaged veterans and other applicants. Bonneville's actions were inconsistent with
concerted efforts by the Federal government to ensure that veterans received appropriate
preferential treatment in the hiring process.
                            Federal Recruitment and Hiring Process

In response to the President's Memorandum, Improving the Federal Recruitment and Hiring
Process, and as outlined in the Office of Personnel Management's (OPM) Delegated Examining
Operations Handbook (Handbook), the Department of Energy (Department), including
Bonneville, was required to implement category rating when evaluating job applicant skills and
abilities. Both Bonneville and the Department began the category rating method of ranking
applicants in November 2010.

Under category rating, applicants who meet basic minimum qualification requirements for the
position and whose job-related competencies have been assessed are ranked and placed in one of
two or more predefined quality categories, such as "best qualified" and "well qualified."
Veterans' preference, however, is absolute within each quality category. Rating categories are
extremely important in that all veterans who qualify for a particular category are priority listed
and immediately rise to the top of that category. Names of all eligible candidates in the highest
quality category are then referred to selecting officials on a "Certificate of Eligibles" for
consideration. Absent some significant disqualifying factor, selecting officials may only choose
from the veterans when they are included in the "best qualified" category. Failure to follow these
requirements can result in an erroneous certification.

As noted in the Handbook, cases of knowing or intentional manipulation of the examining
system are referred to the Office of Special Counsel for remedy, consistent with Merit Systems
Protection Board (MSPB) case law and precedent. In the event that a preference eligible veteran
was denied the right to compete for a particular position, the MSPB has interpreted applicable
Federal law to require the agency to reconstruct the selection process in order to afford the
preference eligible his or her lawful right to compete for that position. The preference eligible
veteran must be restored to the same position that he or she would have been in, had the agency's
violation of the statute not occurred. In reconstructing the vacancy announcement, the agency
must comply with the requirements of competitive service certification. Once the agency has
completely reconstructed the selection process, it must determine whether the selectee is entitled
to continue in his or her appointment to the position. The selectee must be removed from the
position if his or her appointment is in contravention of the requirements of Federal law.
Therefore, for each violation, an agency must reconstruct the selection process and determine
whether the preference eligible is entitled to priority placement because he or she would have
been the successful candidate but for the prohibited violation of Federal law.




Page 1                                                                        Details of Finding
                                Manipulation of the Category Rating Process

Bonneville consistently manipulated the applicant rating process, actions that resulted in "best
qualified" veterans and other applicants not being considered for selection. To illustrate, prior to
announcing a vacant position and soliciting applications, Bonneville determined that all
applicants who scored between 91 and 100 would be rated as "best qualified" and referred to
selecting officials for consideration. To preserve the integrity of the process and as specified in
OPM and Department category rating guidance, ranking categories may not be changed after the
announcement is issued (emphasis added). We found, however, that after ranking applicants,
Bonneville often revised the score ranges for the "best qualified" category. For example, once the
score range was adjusted, from 91-100 to 95-100, all veterans and other candidates who scored
between 91 and 94 were excluded from the "best qualified" category and were not referred to the
hiring official for consideration.

We noted that separate, preliminary reviews by Bonneville and the Department identified over 30
veterans who lost employment consideration because of Bonneville's inappropriate manipulation
of the category rating process. Changes to the scoring schemes also resulted in at least 20
erroneous appointments. 1 A final determination, which will require a reconstruction of all
relevant case files, has yet to be made. Nonetheless, information provided by Bonneville revealed
that these prohibited practices occurred in at least 117 of 240 cases (49 percent) of recruitments
conducted from November 2010 to May 2012.

Bonneville used the inappropriate method of adjusting the "best qualified" category for 18 months
after the category rating process became mandatory in November 2010. In May 2012, a newly
hired Human Capital Management (HCM) staff member with prior Federal experience questioned
the category rating practice used by another employee and both of those individuals approached
the HCM policy group for guidance. The policy group subsequently determined the category
rating practice may have been incorrect and said that it promptly stopped all in-progress hiring
cases.

Results of Internal Reviews

In June 2012, Bonneville conducted an internal review of its competitive hiring cases between
November 2010 and May 2012 and identified 13 erroneous appointments, 34 instances of lost
employment consideration, and 165 instances of lost certification. 2 Bonneville HCM initially
identified 146 delegated examining unit cases that it determined were most likely impacted by the
practice of changing the best qualified category. Bonneville then determined that it would only
examine those cases in which a selection was made and the category was modified, which
resulted in its review of 46 cases. Bonneville told us it did not examine the remaining 100 cases
because it discovered that: (1) no hiring action took place; (2) the category was not adjusted; or

1
  An erroneous appointment is an appointment without a proper authority or legal bases. For example, a non-veteran
is erroneously appointed because a veteran was incorrectly left off the selection certificate.
2
  The 165 instances of lost certification included 11 veterans who lost certification and could be entitled to priority
consideration and 154 non-veterans that involved ensuring proper documentation of the case file.




Page 2                                                                                         Details of Finding
(3) changing the category had not impacted any candidates. Further, in July 2012,
Bonneville commissioned a review using a third-party contractor. The contractor reexamined
Bonneville's results and confirmed the 13 erroneous appointments.

In addition, in a separate review of 20 cases conducted by the Department's Office of Chief
Human Capital Officer (Human Capital) which began in August 2012, officials arrived at a
different number of violations. Specifically, Human Capital staff reviews resulted in the
identification of 11 erroneous appointments and 35 veteran job applicants that lost employment
consideration. Human Capital expressed concern over Bonneville's consistent misuse of
category rating, especially pertaining to the application of veterans' preference. In an April 2013
memorandum to Bonneville, the Department outlined required corrective actions that included
reconstructing 17 of the 20 case files reviewed in which Human Capital identified a violation.

                             Data Integrity and Completeness Issues

Our ability to determine the full scope of the issue with disenfranchising veterans was
complicated by data integrity issues. Specifically, we identified inconsistencies between the
various data sets provided to support Bonneville's internal review. This led us to question the
reliability of the data and the results. In addition, we identified about 32 cases from the
delegated examining hiring log maintained by Bonneville that were never considered in the
internal review. We also found instances in which Bonneville noted its human resources system
contained inaccurate data versus what was represented in the hard copy vacancy announcement
case files. A Bonneville official who provided the information confirmed that the data contained
inaccuracies. Thus, there is little assurance that Bonneville performed a sufficient review
because not all delegated examining cases were identified for the time period reviewed. These
data deficiencies also impacted our ability to determine, with absolute certainty, the number of
affected cases and the magnitude of the inappropriate use of category rating.

In addition, Human Capital noted incomplete case files as part of its internal review of the 20
case files. In fact, we determined through an examination of e-mail traffic that Bonneville, with
the advice of its third-party contractor, deliberately excluded certain case file documents even
though Human Capital requested complete case files. An HCM manager stated that this was
done at the direction of a more senior HCM manager. Human Capital officials noted that
Bonneville's provision of missing key documents, such as applications, would have allowed
them to better assess case files.

                  Failure to Report Erroneous Hires and Take Corrective Action

Bonneville failed to fully disclose to the Department the magnitude of the discriminatory
practices resulting from the manipulation of the category rating process. Also, Bonneville failed
to notify the affected applicants or initiate corrective actions required to remedy the prohibited
practices. We found that Bonneville engaged in an active, months-long campaign to effectively
avoid reporting the impact of the category rating problems, thereby delaying needed remedial
actions.




Page 3                                                                         Details of Finding
Bonneville is subject to laws and regulations governing Federal employees, including Title 5,
United States Code and regulations promulgated by OPM. The Department has historically
delegated broad authority for Human Capital functions to Bonneville, including approval of
personnel actions at all GS levels (or equivalent positions). The August 2009 delegation from
the Department to the Bonneville Administrator states that the delegate shall be governed by the
rules and regulations of the Department. Of particular relevance to the issues we discovered, the
Handbook states, "The examining office must consult with their headquarters in the resolution of
the erroneous action." This Handbook also states that, "If an erroneous certification is
discovered and an eligible [veteran] is affected, you should notify the eligible [veteran]
immediately, particularly if the error was due to a legal violation."

On August 20, 2012, a letter that was intended to disclose the results of the Bonneville internal
review was coordinated through the Bonneville Office of General Counsel. This draft was
addressed to the Department's Human Capital Policy Division and provided a complete picture
of the results of Bonneville's internal review and indicated that Bonneville was seeking
Department agreement on the proposed remedies for the impacted applicants. According to an e-
mail to the Bonneville Office of General Counsel, this letter was to be sent along with case files
requested by Human Capital on August 8, 2012. However, the August 21, 2012 letter from
Bonneville to the Deparment's Human Capital Policy Division transmitting the requested case
files failed to disclose the results of Bonneville's internal review. In the August 21, 2012 letter,
an HCM senior manager wrote:

       BPA identified through its own audits and reviews a practice associated with category
       rating that may have been inconsistent with stated policy and its appropriate application.
       We made immediate changes to the practice and began a review of all potentially affected
       case files. We subjected these files to a third-party review as well. I am completing a
       report of our findings and will be following up with the Department as appropriate next
       week.

Contrary to the statement that a report of the findings from Bonneville's review of all potentially
affected cases would be submitted to the Department, we found no evidence that the referenced
report was ever provided. We were informed that the intended report was an August 2012 report
generated by the third-party reviewer that confirmed the erroneous appointments and lost
considerations, among other issues. It was troubling to discover that a second report was
generated by the same third-party reviewer in September 2012, which completely changed the
reviewer's original position that erroneous appointments had taken place. In the new report, the
third-party reviewer concluded that the practice associated with category rating was not
explicitly prohibited and that there was no pattern of adverse impact to veterans. After reviewing
the second report, a Bonneville attorney sent an e-mail to an HCM manager expressing concern
about the dramatic change with regard to impacted veterans, noting that the new report was
based on a "flagrant misstatement of law."

Subsequently, the draft letter was revised and ultimately excluded all references to the number of
erroneous hires identified by Bonneville during its internal review. In October 2012, an HCM
official edited the draft letter, stating, "After reviewing 160 case files, we have identified no
situation where we believe a corrective action is required." In this same draft, Bonneville


Page 4                                                                          Details of Finding
concluded that "While we believe that the policy and practice in place during the first 20 months
of category rating did not violate any OPM regulations, we did conclude that our policy
documentation and application must be improved."

In January 2013, the letter was finalized and sent to the Chief Human Capital Officer, stating that
Bonneville "became aware in May 2012 of potential issues with the way we were implementing
category rating" and that "we revised our practices and undertook our own review." However,
the letter was silent on the results of that review. The memo stated that Bonneville operated
from the perspective that the practice was compliant and appropriate, as long as the method was
documented. Despite specific legal advice to the contrary, Bonneville indicated that "We are
aware of no regulation or guidance specifically prohibiting the practice." We were told by an
HCM official that the results of the internal review were not disclosed to the Department until
May 2013, nearly a year after the erroneous appointments, lost employment consideration, and
lost certification were discovered. The same official told us that, as of May 2013, Bonneville
had not notified the affected applicants.

The evolution of the communication to the Department concerning the magnitude and
seriousness of the recruitment problems at Bonneville was extraordinary. In our judgement, it
reflected an intentional, willful effort to avoid taking responsibility for what had occurred at
Bonneville.

A Bonneville executive contended that an attempt to provide the results of Bonneville's internal
review occurred in November 2012. The executive stated that she had initiated contact with
Human Capital to advise it of the results of Bonneville's internal review. She asserted in an
interview with us that she was told by a Human Capital official to keep the results because the
Department would be completing its own review soon. The Human Capital official told us that
she recalled the conversation, but believed she may have misinterpreted what the Bonneville
executive was attempting to provide. Regardless of whether or not there was any
misunderstanding, there is reason to believe that the Bonneville executive was not prepared to
fully disclose the magnitude of the problems, the number of erroneous appointments, lost
employment consideration, and lost certification. Specifically, the memo provided to the
executive for her discussion with Human Capital indicated that the third-party reviewer had
concluded that the "best qualified" category under the Bonneville category rating policy
appropriately defined candidates and conformed with OPM regulations and merit system
principles. Most telling was that the memo also incorrectly asserted that the flawed category
rating practice did not have an "adverse impact pattern" regarding veterans. This was totally
inconsistent with the stated facts in these cases.

                                  Restrictive Selection Criteria

In addition to the serious problems in its category rating process, we discovered that Bonneville
disadvantaged at least one veteran by closing a delegated examining announcement and re-
announcing the position in such a way as to exclude the veteran from consideration.
Specifically, rather than hire a veteran for a senior position, Bonneville closed the vacancy
announcement and then re-announced the position with additional, restrictive qualification



Page 5                                                                         Details of Finding
criteria which it knew or had reason to know the veteran could not meet. The selecting official
told us a candidate had been identified for hire, but in May 2012, was advised that a veteran had
to be added to the best qualified list because an error had been made in the case.

After interviewing the veteran, the selecting official determined that he "lacked strategic vision."
The selecting official was informed by an HCM staff member, however, that bypassing the
veteran was not an option because the reasons the official articulated for not hiring the veteran
were not sufficient to justify granting a waiver of the applicant's veterans' preference. The
selecting official told us that because the desired candidate could not be reached, the vacancy
was closed. The selecting official rationalized his decision to proceed in this manner by noting
that the situation turned out for the best because it would have been unfair to hire the veteran,
assess his performance, and then potentially remove him during his probationary period.

To ensure the vacancy could be re-announced, Bonneville declared the candidate pool
inadequate despite having previously identified someone to hire. The selecting official permitted
the vacancy announcement to be closed and reopened despite an HCM staff member's concerns
regarding closing the announcement without legitimate reasons for not hiring the veteran. We
were told that this action was also based on advice provided by a Bonneville staff attorney to an
HCM official that described how to modify the announcement so that the veteran would be
unlikely to qualify. The attorney provided advice on the risks associated with proceeding in that
manner. Rather than providing general advice regarding the propriety of closing announcements
and reopening them with more restrictive selection criteria, the guidance appeared to target the
particular veteran that the selecting official considered bypassing. The attorney also noted that
the veteran may not reapply once the position was re-announced, but even if the veteran did
reapply, it would have been difficult for the veteran to prevail under the new criteria. Bonneville
subsequently executed the plan, and, as predicted, the veteran did not qualify.

It should be noted that the use of restrictive qualification criteria at Bonneville may be a problem
that is more extensive than this one case. Both Department and OPM reviews found that
Bonneville's misuse of overly restrictive qualifications improperly eliminated qualified
applicants from job consideration. The Department's review identified numerous cases in which
the specialized experience statements used to determine applicants' basic qualifications were
overly restrictive, were not distinguishable between grade levels, and were not supportable based
on the duties/knowledge required by the position. OPM found that some factors used by
Bonneville required specific knowledge or skill that could only be gained by having work
experience at Bonneville, which is inappropriate when advertising vacancies outside of the
organization. OPM's report also indicated that this practice gave the perception that Bonneville
inappropriately targeted recruitment to certain individuals.

                        Termination of Veterans During Probationary Period

It was also alleged that veteran employees were terminated at a greater rate than non-veterans
during their 12-month probationary employment period. Due to data integrity issues, we were
unable to conduct a sufficient analysis to draw reasonable conclusions on this issue. Human
Capital officials told us that they will look into this matter using data they will attempt to retrieve
from Bonneville's systems.

Page 6                                                                             Details of Finding
CONTRIBUTING FACTORS

We determined that the management culture at Bonneville contributed to an environment in
which the inappropriate personnel practices could occur. Notably, we observed that Bonneville
officials spent considerable effort distancing the organization from Department oversight. For
example, although Bonneville was required to comply with Department directives related to
delegated human resources authorities, we found that Bonneville management officials
considered such policies to be unnecessary administrative burdens. Consistent with that stance,
at the time of our review, Bonneville was strongly resisting compliance with Department Orders
relating to workforce discipline and human capital management accountability. Our review of e-
mails and interviews with Bonneville management officials suggests that deflecting and/or
resisting Departmental oversight was ingrained in many aspects of Bonneville's human resources
operation, and had been for many years. Compounding problems associated with the general
environment and cultural issues, our inquiry revealed that Bonneville exercised inadequate
oversight and accountability of HCM activities.

In addition, there were fairly obvious warning signals and other indications that Bonneville may
have required enhanced monitoring of its hiring activities. Yet, we found that the Department
had not adequately responded prior to receipt of the allegation in June 2012.

                                      General Environment

Bonneville officials spent considerable effort to distance the organization from Departmental
oversight. Bonneville asserted a need to maintain flexibility to operate its business free of
unnecessary administrative burdens to remain competitive, including exemption from
Department human resources policies. Our review of e-mails disclosed a considerable number of
whitepapers, analyses, and discussions surrounding Bonneville's position that historical
legislation and authorities allowed it to function independently, "unshackled" from the
Department, especially when it came to its human resources function. Bonneville believed the
onus was on the Department to provide a sound business case for Bonneville's inclusion in
Department human resources policy. In response to draft Department Order 333.1,
Administering Workplace Discipline, Bonneville objected to being included under the Order and
stated that its mission requirements and statutory obligations to operate in a business-like manner
justified Bonneville establishing its own policies and procedures. In fact, Bonneville noted that
it had effectively developed, implemented, and enforced its own workforce management and
disciplinary program consistent with the spirit of the draft Order. Based on a discussion with a
Bonneville executive, it was clear Bonneville wanted flexibility in administering disciplinary
actions.

Similarly, in response to its inclusion in draft Department Order 328.1A, Human Capital
Management Accountability Program, a Bonneville talking points paper notes that the draft, as
written, is insensitive to Bonneville's delegated and statutory authorities and its requirement to
operate with independence and flexibility. While Bonneville acknowledged that it participates in
the required Department audits, Bonneville also indicated that it continues to need the authority
and flexibility to define and implement a human resources function that will drive the outcomes
necessary to achieve its mission. In providing advice to an HCM official regarding various


Page 7                                                                         Details of Finding
versions of general draft language to be used in response to proposed human resources
directives, a Bonneville attorney stated that any of the options presented would be successful
because Human Capital "does not have much clout."

In preparation for a meeting between Bonneville and the Department, a Bonneville HCM
management official advised an executive in an e-mail dated February 2011, to avoid any
discussions involving new human resources policies or Bonneville's own policies, specifically
stating that "you know that we try to keep our distance from [the Department] on many fronts."
It was also stated that:

       We do not take existing [Department] HR policy as guiding. We do not ask for any
       [Department] review of our implementing policies. And we consciously ignore some of
       their policy guidance when they try to sweep us under their purview.

Bonneville's persistent position that other authorities allow it to be exempt from Human Capital
oversight prompted a senior Human Capital official to request an analysis of legal authorities
related to Bonneville from the Department's Office of the General Counsel in May 2013. The
Office of the General Counsel concluded that Bonneville is an entity within the Department and
as such, the Bonneville Administrator's authority with regard to personnel actions is derived
from the Secretary of Energy's authority. A Department Delegation Order delegated from the
Secretary of Energy to the Chief Human Capital Officer the authority over all personnel and
employment related matters for the Department. The Chief Human Capital Officer is authorized
to redelegate this authority. The Chief Human Capital Officer's delegate, the Director of Human
Capital Management, further delegated to the Bonneville Administrator the authority to approve
and administer certain personnel actions.

                                     Opposition to Reporting

We concluded that problems with management culture were at the heart of the failure to make
appropriate and required notifications and to take actions to address the large volume of hiring
errors that occurred in the 18 months preceding their discovery. Specifically, Bonneville
believed that it was separate and distinct from the Department. In an April 4, 2013, e-mail
relating to the "BPA Hiring Memo" addressed to a senior executive at Bonneville, another
Bonneville executive stated that:

       We did not notify DOE upon determining there may have been some question in how we
       were applying the Best Qualified determination. There is not a practice for Bonneville,
       and more specifically Bonneville's HCM to notify DOE HC [Human Capital] or in
       general any other DOE department of issues unless something appears to be beyond our
       capacity to address the issue or we are actually seeking guidance. We were able to
       address the issue through and (sic) investigation, ceasing what we were doing and then
       retraining. This is and has been the normal practice and has been based upon Bonneville
       operating in a businesslike manner and generally being separate and distinct from the
       Department.




Page 8                                                                         Details of Finding
The executive noted that at the time this e-mail was crafted, she did not believe the issue or the
results had been communicated to the Department. Subsequently, the executive determined that
she, in fact, had initiated a dialogue with the Chief Human Capital Officer in July 2012. The
communication was primarily to acknowledge that an issue had been identified and that
Bonneville was working on it. We noted, however, this communication failed to disclose the
basic elements and scope of the problem as self-identified by Bonneville during its internal
review in the summer of 2012. Thus, the conversation completely understated the seriousness
and implications of the problems at Bonneville.

Our review disclosed that there was an internal disagreement at Bonneville between August of
2012 and April of 2013. Bonneville officials told us that, even though they had suspended the
practice of adjusting the score range for the "best qualified" category, there was internal
disagreement about whether they had actually done anything wrong. We were told by an HCM
official that the concept of not disclosing the results of Bonneville's internal review took
precedence, and that a decision was made to wait and see what direction would be forthcoming
from the Department's review of category rating that began in August 2012.

                           Bonneville's Oversight and Accountability

We found that Bonneville failed to exercise adequate management of its personnel recruitment
functions. Specifically, Bonneville:

   •   Failed to ensure that there was sufficient Federal human resources experience within the
       ranks of HCM management;

   •   Did not adequately maintain or track HCM personnel training information and, as a
       result, was unable to identify skill gaps;

   •   Relied on informal, undocumented practices to govern its category rating process; and

   •   Did not ensure that the quarterly audit process, a control designed to detect or prevent
       prohibited practices, was properly implemented.

Lack of Federal Human Resources Experience

Bonneville filled its ranks of HCM management with individuals who lacked Federal human
resources experience. Several key events that span over almost a decade contributed to the
current state of Bonneville's HCM. Specifically, an overhaul of Bonneville's HCM started in
2004, when Bonneville began an initiative with the key objective of effective cost management
through systems and processes. As part of this initiative, Bonneville developed a new Human
Resources service delivery model that would align human resources policies with Bonneville's
business strategy and objectives. This began a transition where human resources was seen as a
customer service-oriented function rather than a compliance-oriented organization.

Bonneville devised a "hiring pilot program" that it used to fill most of the key HCM management
positions with individuals who had extensive private industry experience, but little or no Federal


Page 9                                                                         Details of Finding
experience. The hiring pilot came under internal and external scrutiny, including Bonneville's
own internal review function, which concluded that certain aspects of the hiring pilot were not in
conformance with laws and regulations. The Department also noted in its 2010 Human Capital
Management Accountability Program (Accountability Program) audit that the hiring pilot was
not in conformance with Hiring Reform policies because it did not properly consider veterans'
preference and should be immediately ceased. However, we determined that even after this
notification, Bonneville continued to use the hiring pilot to fill its leadership positions.

Recruiting individuals with no Federal human resources experience to fill these key positions
appears to have been by design. In a 2009 Change Management and Communication Plan for
the reorganization of Bonneville's HCM, one strategy was to develop effective HCM managers
and employees and it was noted that the "new HCM leadership team will have a significant
number of new managers, new to [Bonneville] and new to the Federal government." Although
Bonneville executives acknowledged they were aware HCM management had minimal Federal
human resources experience due to the removal or departure of most legacy personnel, at the
time, there was no intervention by those executives. Because most key HCM managers had little
or no Federal human resource experience, they were unable to provide adequate technical
oversight and guidance to their staff related to Federal human resources and more specifically,
the implementation of category rating that had not previously been used by Bonneville. A
Bonneville official said that, in hindsight, Bonneville could have done a better job managing the
change to its human resources business model and that the pendulum had swung too far in trying
to change human resources to a service-oriented organization. We concluded that achieving a
better balance between service and compliance might have prevented the problems that
Bonneville must now address.

                                    Training and Proficiency

Bonneville could not demonstrate that HCM staff were adequately trained to ensure full
compliance with Federal hiring practices, including category rating. Specifically, HCM was
unable to provide training records documenting that HCM staff were adequately trained on
category rating practices. Per the Handbook, all employees involved in delegated examining
activities are to receive initial training from OPM. Individuals who successfully complete this
initial training are certified to perform delegated examining work and must re-certify every 3
years. The Handbook also recommends that staff identified for delegated examining work
should have one or more of the following to be proficient:

   •   Prior work experience in either Federal competitive staffing or internal merit promotion
       operations;

   •   Classroom training providing a knowledge of basic Federal staffing policies, procedures,
       methods, and techniques; and/or

   •   Knowledge of Federal personnel management procedures, including applying and
       following merit system principles.




Page 10                                                                        Details of Finding
While HCM management asserted its staff had conducted and attended in-house and external
category rating related training, it was unable to provide rosters or training certificates for the
training sessions. Further, during our inquiry we reviewed training records for HCM staff that
processed category rating cases and determined HCM management either had not or could not
determine skill levels of its staff because training information was not maintained or tracked.
The problem we encountered was not purely theoretical or simply a matter of lost documentation.
In fact, Human Capital, OPM and Bonneville itself identified a lack of training in numerous
areas of Federal hiring as a root cause in the misapplication of category rating and other
infractions.

                              Informal and Undocumented Practices

Bonneville relied on informal, undocumented practices to govern the category rating process
implemented by the staff with the knowledge and concurrence of HCM management. The
Bonneville category rating Standard Operating Procedure was modified by a practice that
established the best qualified score range as 91 to 100, even though its Standard Operating
Procedure indicated a range of 90 to 100. In addition, to provide a reasonable number of
candidates to the selecting official, HCM staff were permitted to change category score ranges
after candidates had already received an initial rating and ranking. However, none of these
practices were memorialized in Bonneville human resources policy.

We were told that Bonneville's practice of changing the score range for the best qualified
category began with the desire to "avoid sending an excessive number of candidates to the
selecting official." HCM staff told us that based on prior experience with hiring officials using
other types of hiring authorities, they informally identified the range of 5 to 10 applicants as the
ideal candidate pool. HCM staff told us, however, they did not receive pressure from hiring
officials to reduce the number of candidates, but made those decisions individually on a case-by-
case basis.

In preparing the training and Standard Operating Procedure for Bonneville's category rating
process, Bonneville HCM management officials relied primarily on a staff member who they
believed had extensive knowledge of Federal hiring practices. While the individual had been
previously employed with OPM for less than 3 years, he told us he never represented himself as a
subject matter expert in category rating. He did acknowledge, however, that he had provided
advice to HCM staff that actions to redefine rating categories and set up natural break points for
referring candidates were permissible. The individual told us that he had been regularly
discouraged by HCM management from seeking external guidance from the Department on
policy issues. Thus, there was no attempt to validate the accuracy of the Standard Operating
Procedure on category rating or the employee's inappropriate and incorrect advice to staff
members. Bonneville's reluctance to seek external expert assistance when implementing a new
hiring process reflected a level of hubris that appears to be the underlying cause of the current
crisis.

While we considered the actions by the HCM staff to be intentional, we did not detect that these
actions were malicious. Bonneville officials told us they believed they were acting in good faith
when they adjusted the category rating and did so only for expediency to reduce the candidate


Page 11                                                                         Details of Finding
pool to manageable levels. In our view, such an explanation defied logic for cases in which
veterans were involved. In those cases, veterans should have been at the top of the best qualified
category in each instance. As such, the pool of applicants would have been effectively limited to
those with preference. In effect, this would have achieved precisely the goal that Bonneville
officials claimed they desired. The only difference is that it would have been entirely consistent
with relevant Federal hiring policies.

                     Insufficient Implementation of Quarterly Audit Process

Bonneville did not ensure category rating was adequately assessed in its quarterly audit process,
actions which resulted in the inappropriate practice going undetected. Per Department Order
328.1, Human Capital Management Accountability Program, Department Human Resources
offices are required to conduct quarterly reviews of personnel actions to ensure that processing
practices are consistent with merit system principles, statutory and regulatory requirements, and
Department policies. We were told that the contract auditor who performed the quarterly
reviews had not been notified by HCM that category rating was mandated by hiring reform until
the third quarter of Fiscal Year (FY) 2012, 18 months after the effective date of the requirement
to use category rating. Category rating was then factored into the quarterly audit process in the
same quarter and the contract auditor was asked to go back and audit previous quarters while
Bonneville was conducting its own internal review of the impact of the misapplication of
category rating. The contract auditor's conclusions regarding erroneous hires and lost
considerations were consistent with Bonneville's internal review.

While the quarterly audit process did not identify the inappropriate use of category rating, the
audits conducted in FY 2011 and FY 2012 identified numerous infractions in other areas that
should have raised concern about the overall effectiveness of Bonneville's human resources
processes. Some infractions were categorized as minor, such as case file documents not
completed or signed. Other infractions were clearly major, to include veterans' preference
violations or lost considerations. In addition, the error rate for cases reviewed was exceptionally
high, reaching 100 percent for all delegated examining case files in one quarter of FY 2012. Of
particular concern, HCM management did not always ensure identified infractions were
corrected. For example, in January 2013, in preparation for the Accountability Program audit,
HCM was still in the process of correcting infractions that had been identified since the last audit
in 2010. Especially concerning, HCM identified two quarters, one from FY 2011 and another
from FY 2012, where all of the infractions identified had yet to be corrected. Several HCM staff
noted there was resistance from HCM management to correct infractions as they were identified
and to communicate the results of the audits to the staff so they could correct the errors and learn
not to make similar mistakes in the future.

The lax attitude toward the internal audits and correcting problems identified as part of this
process was telling, raising serious questions regarding Bonneville's efforts to manage and
execute a personnel operation that met Federal and Department requirements.

                    Departmental Oversight of Bonneville's Hiring Activities

We observed what we considered to be obvious early warning signals and other indications that
enhanced monitoring of Bonneville's hiring activities was warranted. However, we found that

Page 12                                                                         Details of Finding
the Department had not adequately responded to these indicators. Department Order 328.1
establishes requirements, roles and responsibilities for human resources programs and personnel
to ensure that human capital activities are compliant with Federal laws, regulations, and
Department policies. This directive required Human Capital to review hiring activities at
Bonneville and, if necessary, ensure that action was taken to resolve deficiencies.

Human Capital Management Accountability Program Audits

We noted that Human Capital failed to ensure that Bonneville implemented required corrective
actions identified during its 2010 Accountability Program audit. The Department is required to
conduct an audit of human resources programs and services for each Human Resources office
within the Department every 3 years. Human Capital's 2010 Accountability Program audit
resulted in 28 required actions. Required actions are designed to remedy regulatory or
Departmental violations and any pattern in organizational behavior that could pose a regulatory
or programmatic hiring issue in the future.

However, the Department had not adequately followed up on required actions identified during
the 2010 Accountability Program audit at Bonneville. The 2010 audit identified systemic control
weaknesses with Bonneville's hiring actions and policies and procedures. After the issuance of
the audit report, Bonneville provided the required corrective action plan within 90 days to the
Department. In October 2011, the Department responded with concerns related to eight of the
proposed actions and stated that Bonneville must comply with all required actions, and that
failure to comply would result in loss of its hiring authorities. Department officials
acknowledged that they failed to follow up to ensure that the corrective actions were
implemented. According to its March 2012 Accountability Program Guide, the Department must
track and monitor the status of corrective actions resulting from Accountability Program audits.

An HCM staff member told us that a report was sent to the Department in October 2012, stating
that all corrective actions had been taken. However, in January 2013, Bonneville's internal audit
function conducted a review of the 28 required actions and concluded that 8 had not been
adequately implemented. The internal audit report also stated that it "appears" the remaining
required actions had been implemented. In related documentation, the auditor noted difficulty in
obtaining reliable information from HCM, asserting that this was a limitation in making concrete
conclusions. In spite of the assertions by Bonneville's internal audit, it turns out that the findings
identified in the 2010 Accountability Program audit were systemic in nature, evidenced by the
fact that the 2013 audit found that many of the issues still existed.

Further, we found it noteworthy that the Department had not compelled Bonneville to conduct
and submit reports of its required quarterly self-audits. As previously noted, these audits were
intended to ensure that processing practices were consistent with merit system principles and
Department policies. Had these audits been submitted as required, the high rate of errors in the
quarterly audits we reviewed may have prompted the Department to monitor Bonneville's hiring
activities more closely.

Human Capital officials stated that due to limited resources it was difficult to perform proper
follow up of audit findings. These officials told us that they conduct about five audits per year,


Page 13                                                                           Details of Finding
making it very challenging to keep up with just the audits and resultant reports. In discussions
with Department officials, even though the 2010 Accountability Program audit identified some
significant issues, at the time, there was no consideration of suspending Bonneville's hiring
authorities. By not following up on the corrective actions and not ensuring quarterly audits were
submitted as required, the Department missed an opportunity to detect or prevent the significant
issues that have surfaced at Bonneville.

Hiring Information System

For reasons that were not clear, Bonneville was not required to use the Department's hiring
information system. Instead, Bonneville created its own hiring system even though the
Department's system was available at a substantially reduced cost. In fact, Bonneville executed a
contract to create a new system rather than using the system that all of the Department's other 17
human resources offices were using. In addition to the significant financial impact on
Bonneville's ratepayers, Bonneville's refusal to use the commonly available system impeded the
Department's oversight and monitoring. As such, the Department had to rely on manual methods
involving Bonneville shipping hardcopy case files to Human Capital for review. Direct access to
electronic case files may have allowed the Department to detect or prevent the category rating
problems at Bonneville.

As part of the hiring reform, OPM required agencies to implement an electronic hiring system.
In 2011, the Department presented its system's capabilities to Bonneville and outlined a business
case for its use. The business case noted minimal transition costs compared to the higher cost
of purchasing a new and separate system because the Department already absorbs the cost of the
system for all of its other human resources offices. Without Department intervention, Bonneville
procured its own system in 2012, at a cost of $5.2 million for a 3-year period with five 1-year
options for a total of $16 million. In addition, Bonneville hired a consultant for $230,000 to
identify the vendors that would best meet Bonneville's needs. Bonneville even solicited the
Department's contractor for bid, not as part of the Department's system, but as a stand-alone
system. While the cost to include Bonneville in the Department's system was not formally
documented, Human Capital officials told us that the Department's total annual cost for its hiring
system is approximately $460,000, which covers all the other 17 human resources offices in the
Department. Hiring actions processed by these offices combined are double that of Bonneville.

The Department and Bonneville identified technical and compliance issues with Bonneville's
hiring system. Bonneville's own internal audit group concluded that the system fell short of
ensuring Federal rules for veterans' preference were followed. Specifically, the system did not
apply proper treatment to a disabled veteran to ensure appropriate consideration; a manual
workaround was required. Human Capital noted in its 2013 Accountability Program audit that a
review of the system processes identified several significant erroneous procedures that must be
corrected to prevent continued systemic violations of merit system principles and other
regulatory requirements. For example, the system and Bonneville's policy allowed hiring
managers to access applications prior to candidates being rated by HCM staff, a practice that we
were told by Human Capital officials violated OPM regulations.




Page 14                                                                       Details of Finding
Bonneville consistently asserted that it should be exempt from aspects of Human Capital's
policies because it would be cost prohibitive or administratively burdensome. Bonneville's
decision to procure its own hiring system appeared entirely inconsistent with that assertion.
Finally, by allowing Bonneville to procure its own system, the Department may have missed an
opportunity to provide necessary oversight of Bonneville's hiring activities and ensure
transparency. From a safeguards perspective, Bonneville's delay in implementing its system and
the reliance on a manual hiring process raises concerns regarding the data quality and
completeness of hiring case files due to the risk of human error. In the 2013 Accountability
Program audit, the Department confirmed that errors were found in many of the case files
reviewed as a result of the manual process.

                              Culture of Intimidation and Mistrust

Bonneville allowed what could only be described as a culture of intimidation and mistrust in its
human resources operation. During our inquiry, we identified numerous indications from current
and former Bonneville employees that mistrust and fear of retaliation prevailed in the HCM
operation. HCM employees indicated that they were compelled to take certain actions that they
did not agree with out of fear of retribution or retaliation. An HCM manager told us that, in
assembling Bonneville hiring files requested by Human Capital, he was told to only include
selective documentation. When he voiced his concern, he was overruled by a senior HCM
manager. When we asked why he did not press his case, he said that such action would have
resulted in a poor performance review. He noted that HCM management used performance
reviews as a tool to force conformance from staff.

The responsible senior HCM manager's immediate supervisor stated that she was aware that the
manager was abrasive and that concerns regarding management style had been expressed to her.
However, she stated that because of the manager's many years of Bonneville experience, she did
not want to put the manager on a performance improvement plan, but instead sent the manager to
leadership training. Consistent with our finding, Human Capital also noted in its 2013
Accountability Program report that observations and feedback from focus groups indicated an
environment of mistrust.

                                      Potential Retaliation

During our review, we became aware that a number of HCM staff members who either
cooperated in our inquiry and/or who had previously raised personnel-related concerns with
Bonneville's management and Department officials had been subjected to or had adverse
personnel actions pending. These HCM staff members had been subject to, or proposed for
adverse personnel actions including suspension, removal from Federal service, or placement on a
Performance Improvement Plan (PIP), which could lead to an adverse personnel action. The
most egregious examples of questionable activity we observed was Bonneville's efforts to
remove both HCM staff members who initially questioned the category rating process from
Federal service. We also noted Bonneville's disparate disciplinary actions against the HCM staff
who manipulated the applicant rating process.




Page 15                                                                      Details of Finding
Because of the urgency of the matter, in July 2013, we issued a Management Alert, Allegations
Regarding Prohibited Personnel Practices at the Bonneville Power Administration (DOE/IG-
0891, July 2013). In that alert, we noted that we were deeply concerned about the chilling effect
these adverse actions could have on our review. We recommended to the Department that:
(1) all ongoing disciplinary actions of HCM staff should be suspended until our inquiry has been
completed and the final results have been provided to the Department for full consideration; and
(2) in the case of individuals removed or on administrative leave pending removal, those
employees should be temporarily restored to their positions. In response to our report, the
Department concurred with our conclusions and informed us that it had already taken action to
suspend Bonneville's authority to take adverse action against any employee, to have Bonneville
provide the Department with all information on any adverse action in process or under
consideration, and to instruct Bonneville to have any HCM employee who was currently on
administrative or any other leave type due to a proposed removal or suspension return to work
immediately.

                           Adverse Actions Against HCM Employees

During our review, we discovered instances of disparate treatment that were particularly
troubling. We learned that both HCM employees primarily responsible for bringing
Bonneville's category rating issues to management's attention subsequently received notices of
proposed removal from Federal service.

In October 2012, one of the disclosing individuals received a proposal for removal because the
individual implemented the informal, undocumented procedure of manipulating the applicant
rating process, potentially denying preference to a veteran. However, as a result of the
employee's self-disclosure the HCM employee was able to take corrective action before a job
offer was made, preventing an erroneous hire. We learned that in May 2012, the HCM employee
developed concerns about one of the in-process case files and the application of the category
rating process in that particular hiring action. On May 16, 2012, the HCM employee sent an e-
mail request for guidance to HCM's policy group, which stated:

       It has come to my attention that I may not be applying category rating correctly. Since it
       is very important to me to do this correctly, I am requesting your help…Is the process we
       use to identify the Best Qualified candidates properly applying Veterans' (sic) preference
       and assuring that non-Veterans are not losing consideration?

Based on this request, HCM's policy group conducted a review of this in-process case file, which
included a written justification for raising the cut-off score for best qualified candidates above
Bonneville's pre-designated score of 91. The policy group concluded that raising the cut-off
score – which excluded a veteran candidate from the best qualified referral certificate – appeared
to violate veterans' preference. The case was returned to the HCM employee, who was
instructed to correct the case file, using the pre-designated cut-off score of 91. The staff member
made the correction and a job offer and legal hire were subsequently made. Bonneville told us
that it revised its category rating procedures on May 23, 2012, to prohibit changing the best
qualified category during or after the candidate assessment process.



Page 16                                                                        Details of Finding
Approximately 4 months later, on September 28, 2012, HCM management verbally advised the
employee that they would be removed from Federal service, based on poor judgment the
employee demonstrated in the preliminary application of category rating in the subject hiring
action. HCM management asserted that this was an isolated case because the employee adjusted
the best qualified category which would have violated veterans' preference. On October 1, 2012,
Bonneville presented the employee with a notice of proposed disciplinary action stating that the
employee be removed from Federal service in order to promote the efficiency of the service.
After the employee retained an attorney and filed an administrative grievance, the proposed
adverse action was eventually reduced from removal to a 6-day suspension, and finally to a 2-
day suspension. When we asked what consideration HCM management gave to the employee's
status as a whistleblower, several HCM officials stated during interviews that they did not
consider this employee to be a whistleblower. However, our review and analysis of e-mail
traffic between Bonneville officials found evidence that the HCM employee's status as a
whistleblower was discussed during at least one e-mail exchange.

In discussions with Bonneville officials, we determined that no other HCM employees were
subjected to disciplinary or adverse personnel actions as a result of misapplying the category
rating process, even though HCM's internal review identified five other HCM employees that
applied category rating in a similar fashion, resulting in actual erroneous hires. This disparity in
Bonneville's treatment of its HCM employees created the appearance of retaliation against the
sanctioned employee.

Bonneville officials and legal counsel told us they were previously unaware of certain relevant
information that the Office of Inspector General brought to their attention. This information
consisted of an external review and report produced in August 2012 by an HCM contractor. This
report identified a nearly identical instance in which category rating was misapplied by another
experienced HCM employee, resulting in an actual erroneous certification, refuting the concept
of an isolated incident. When asked why management had not considered this information,
which was available more than a month before the disciplinary proposal was completed,
Bonneville officials stated they had not read the details of the report. Additionally, our review
revealed that the proposed letter of removal contained a number of factual inaccuracies. Of
particular note, the letter stated that HCM management had identified the category rating issues
in the employee's case file when, in fact, these issues were first self-identified by the HCM
employee.

We also noted that the original removal letter stated that there were only three candidates on the
initial best qualified list and that the veteran was the only candidate who would have been
eliminated by moving the cutoff score upwards; this was presented as evidence of the employee's
intent to disadvantage the veteran candidate. In fact, there were 10 candidates in total, 8 of
whom would have been disadvantaged by raising the cut-off score. Bonneville's legal counsel
subsequently issued an errata letter to correct this information. Regardless of whether these
inaccuracies were accidental or not, Bonneville's management continued to rely on them as basis
for removal of the HCM employee.

We also learned that another HCM employee who was instrumental in bringing the category
rating issue to management's attention was notified in December 2012 that the employee's


Page 17                                                                          Details of Finding
performance review included a rating of unacceptable for the critical element "Behavioral
Performance Expectations – Teamwork and Collaboration." Subsequently, the employee was
placed on a PIP beginning in March 2013, and given 90 days to successfully complete the PIP.
Anticipating the imminent receipt of a proposal for removal, the employee requested a meeting
with a senior Bonneville executive to discuss these concerns.

We found that the senior Bonneville executive requested an executive on his staff to meet with
the employee, even though the employee had expressed concern that this same executive had not
adequately addressed outstanding issues on previous occasions. A meeting was held on July 2,
2013, between the employee and the executive, which the employee stated it was "a last ditch
effort to stop the retaliation from escalating." The meeting was the employee's attempt to
communicate to senior Bonneville executives that HCM management was not protecting the
organization and that issues extended beyond category rating. The employee noted retaliation
was discussed but not to the extent desired. The employee provided the executive with a talking
points paper that provided more detail regarding the subjects discussed. After the meeting, the
executive sent an e-mail on the same day to the employee stating that Bonneville does not
tolerate retaliation and actions would be taken related to the employee's concerns, including
having both an HCM official and a staff member in the Equal Employment Opportunity office
obtain more specifics and review the facts.

On the same day, a different Bonneville manager, appointed to be the deciding official on the
proposed removal, approached the executive that had interviewed the employee whose removal
was proposed. The deciding official expressed concern about the justification for removal. This
manager suggested that they consider going slower on this action because there were external
factors to contemplate, including sensitivity to ongoing Office of Inspector General and
Department reviews and the optics of removing a whistleblower. The executive acknowledged
the concerns of the deciding official and referred him to Bonneville's Office of General Counsel.
However, the next day, on July 3, 2013, Bonneville issued a letter to the employee proposing the
individual's removal from Federal service because the employee had not satisfactorily completed
her PIP. The request for authority to remove and place the employee on administrative leave
was signed by an HCM manager, the same day he retired from Bonneville.

Both of the Bonneville senior executives told us that, despite their knowledge that the individual
sought protection as a whistleblower, they believed the purported performance issues merited
removal and therefore they took no action to intervene in the case. In contrast, we found that the
removal action was based largely on behavioral issues, not performance, and that a number of
the items cited as the basis for removal were clearly trivial, such the employee's refusal to nod in
agreement during a staff meeting and then in another instance, being happy, smiling, and
nodding during the OPM review outbriefing.

We determined that both of the HCM employees against whom action was taken were
instrumental in facilitating Bonneville's recognition of its flawed category rating procedures.
Without the employees' initiative in seeking clarification regarding these disputed procedures,
HCM's inappropriate use of category rating may have continued for a much longer period of
time, resulting in many more erroneous hires and lost employment considerations. We
concluded that disciplinary action against the employees appeared to amount to retaliation.


Page 18                                                                         Details of Finding
                                    Performance Management

We noted during our review that half of an HCM employee's performance assessment relates to
behavioral elements. As noted previously, an HCM employee's proposal for removal was based
solely on behavior and not technical competency. This highly subjective factor is used
extensively by Bonneville in its performance management. An executive at Bonneville touted its
performance management program and noted that the performance management process at
Bonneville worked the way it was intended, as it relates to the actions described in this report.
Human Capital's 2013 Accountability Program audit noted the manner in which Bonneville
management has used "Behavioral Performance Expectations" as a basis for adverse actions
against employees tends to stifle honest and open communication and feedback. In addition, the
report stated the use of behavior as a critical element was not in accordance with 5 United States
Code, Section 4302(b)(1). To its credit, the Department is requiring Bonneville to revise its
employee performance management program to conform to the Department's program in which
behavioral factors are used as contributing factors, rather than a critical element.

                                  OPM and Department Actions
While the category rating process was an essential component of current problems, numerous
other infractions related to personnel practices at Bonneville were identified by OPM and Human
Capital. These discoveries culminated in OPM decertifying HCM staff and Human Capital
suspending all human resources authorities.

OPM Actions

We noted that OPM conducted a review of Bonneville's hiring practices in April 2013.
Furthermore, in an e-mail to Bonneville, dated May 23, 2013, OPM observed that:

       The volume of varied and widespread errors leads us to conclude Bonneville Human
       Resources Specialists lack competencies in most fundamentals of Federal staffing. Based
       on the issues identified, we believe [Bonneville] is vulnerable to legal challenges,
       violations of merit system principles, and prohibited personnel practices. Without
       extensive training, and a plan for increased accountability and oversight of all Human
       Resources staff, continued operations will certainly lead to additional illegal appointments
       and violations of civil service laws and regulations.

OPM prescribed the training that staff would be required to take and stated that Bonneville must
not permit the decertified individuals to perform delegated examining-related work without 100
percent review by a certified individual and until the extensive training is completed. Finally, on
August 28, 2013, OPM issued the final report from its April 2013 review. OPM noted that it had
identified serious systemic problems. Those problems included inconsistent and faulty
qualification determinations and an inappropriate practice of routinely raising the cut-off score
for the best qualified category after assessing and placing candidates into categories. This
practice resulted in many cases of erroneous disqualification of applicants and lost considerations
for selection, affecting both veterans and non-veterans. Competency gaps among HCM staff
were the major contributing factor. OPM concluded that "[Bonneville's] staffing program does


Page 19                                                                        Details of Finding
not operate consistently with merit system principles, Federal laws and regulations, the Veterans'
Preference Act of 1944, as amended, or with the President's Hiring Reform Initiative." As a
result of the review, OPM required Bonneville to reconstruct all staffing actions in which
selections occurred, since June 30, 2011, and issued required and recommended actions intended
to correct deficiencies and improve staffing operations at Bonneville.

Department Actions

We further noted that, subsequent to OPM's decision to decertify staff, the Department
temporarily suspended Bonneville's overall delegated examining authority. In a memorandum
dated May 24, 2013, the Department found that "all the reviews revealed consistent improper
hiring practices occurred, specifically in the application and adjudication of veterans' preference
and misapplications of qualifications procedures. These practices have resulted in numerous
inappropriate hires, violations of merit system principles, and violations of veterans' preference."
Further, on June 21, 2013, the Department also temporarily suspended Bonneville's merit
promotion authority.

On August 14, 2013, as a result of its Accountability Program audit findings, the Department
temporarily suspended all human resources authorities, to include employee and labor relations,
all personnel transactions, and performance management. The report identified a number of
infractions and misuse of delegated human resources authority that resulted in numerous
violations of merit system principles and veterans' preference as a well as a blatant disregard of
Department and OPM policy guidance. The transmittal memorandum further states that the
extent of the issues reflects a broad lack of knowledge and understanding of the laws,
regulations, and Department policies applicable to the proper management of a Federal
workforce, not only by Bonneville HCM staff, but by Bonneville management as well.

As a result of the actions taken by OPM and the Department, Bonneville will be required to take
a significant number of corrective steps to regain its authorities and re-certify its staff. Most
notably, Bonneville will be required to reconstruct all delegated examining and merit promotion
hiring cases between November 2010 and April 2013. The reconstruction of the delegated
examining cases is to be performed by a third-party contractor. Also, Bonneville is required to
create a corrective action plan for the 50 required actions and 19 recommendations identified by
Human Capital's 2013 Accountability Program audit. The Department noted that, "The level of
effort needed to complete all required corrective actions is monumental and the road to full
recovery will be extremely challenging." Finally, in light of the concerns raised in our
Management Alert, the Department completed a management review of Bonneville in August
2013. This review observed that there were, among other things, concerns with:

   •   Lack of a reporting relationship between the Bonneville Human Resources Director and
       the Department's Chief Human Capital Officer.

   •   Knowledge of Department-wide guidance designed to ensure compliance with and
       consistent interpretation of Federal law as it relates to the human resources process. The
       review confirmed our finding that HCM staff had been prohibited from communicating
       with Department Headquarters on any matter.


Page 20                                                                         Details of Finding
   •   Use of a different human resources information system impedes the Department's ability
       to communicate with Bonneville and to conduct reviews and audits to ensure compliance
       with Federal laws.

   •   A lack of Federal human resource experience by senior HCM managers.

The management review recommended a series of corrective actions designed to address these
and other management-related issues at Bonneville.

IMPACT AND PATH FORWARD

Bonneville's hiring practices have disadvantaged veterans and other job applicants, disrupted
operations at Bonneville and the Department, and have necessitated a get-well effort that will be
extremely costly and time consuming. Moreover, the trust and confidence in Bonneville, an
entity serving the public since the 1930s, has been tarnished.

The full impact of Bonneville's hiring practices, which have disadvantaged veterans and other
job applicants, will not be realized until Bonneville reconstructs each case as required by the
Department. It has been estimated that Bonneville will need to reconstruct at least 1,200
delegated examining and merit promotion hiring case files representing approximately 22,000
applicants.

In total, the immediate costs to quantify the extent of the problem and design corrective action,
not including the actual costs needed to remedy the erroneous appointments and discriminatory
practices, will likely exceed $3 million – a cost that will have to be absorbed in large part by
Bonneville's ratepayers. As of September 2013, the Department estimated it will cost about $1.7
million through FY 2014 for Department and contractor staff to reconstruct and/or review
approximately 1,200 delegated examining and merit promotion cases. Additionally, in August
2013, Bonneville entered into an agreement with OPM to reconstruct 400 of those delegated
examining and merit promotion case files at a cost of approximately $925,000. Bonneville will
also incur costs of about $180,000 to train its HCM staff for OPM recertification. Subsequent to
the completion of its review, Bonneville will be required to complete a variety of remedial
actions to provide relief to individuals impacted by its inappropriate practices.

While the Department has taken a number of corrective actions to date, more needs to be done.
To address the issues identified in this report, we made a number of recommendations intended
to ensure affected veterans receive the preference to which they are entitled and that all
applicants are fairly treated. Our recommendations should also assist the Department with
ensuring that Bonneville administers and manages its human capital function in accordance with
Federal regulations and Department policy. Sustaining these corrective actions over time will
require the active interest of senior officials at Bonneville and at the Department.




Page 21                                                                        Details of Finding
RECOMMENDATIONS

We recommend that the Department:

   1. Evaluate the actions of management and other officials at Bonneville and determine
      whether disciplinary or other administrative actions are appropriate.

   2. Ensure that the full scope of the manipulation of the category rating process is identified,
      the total number of affected veterans and other applicants is determined, that affected
      applicants are notified and that appropriate remedial actions are taken.

   3. Require Bonneville to develop a comprehensive corrective action plan in response to the
      2013 Accountability Program Report and ensure that the Department's "Get Well Plan"
      for Bonneville is completed and implemented.

   4. Ensure that Bonneville HCM is cognizant of its responsibility to immediately report
      erroneous hires and any inappropriate exclusion of veterans and other applicants from
      consideration for selection.

   5. Direct Bonneville to ensure that all HCM staff identified for delegated examining work
      have one or more of the prerequisites discussed in the Delegated Examining Operations
      Handbook related to training and experience, that training is adequately documented, and
      that staff have needed Federal human resources experience.

   6. Ensure that Bonneville develops a plan to exercise an appropriate level of oversight and
      accountability over all HCM activities, and that the quarterly audits are capable of
      ensuring that processing practices are consistent with merit system principles, statutory
      and regulatory requirements, and Department policies.

   7. Establish a process to follow up on required actions identified during the Accountability
      Program audits at Bonneville.

   8. Ensure that Bonneville maintains an environment where its personnel can raise issues
      with regard to Bonneville's practices free from any fear of retaliation.

   9. Conduct periodic meetings with Bonneville executives to develop a collaborative
      relationship in which compliance with the laws and regulations governing the civil
      service is recognized as paramount to the mission of Bonneville and the Department's
      human capital functions.

   10. Prior to allowing Bonneville to take personnel actions directed at HCM staff members
       who either cooperated in our inquiry and/or who had previously raised personnel-related
       concerns with Bonneville's management and Department officials, review any and all
       such actions to include suspensions, removals and proposed removals from Federal
       service, or placement on PIPs to ensure conformance with Department policies.


Page 22                                                                      Recommendations
MANAGEMENT REACTION AND OIG RESPONSE

In a September 20, 2013, memorandum, the Department expressed its concurrence with the
facts presented, the conclusions reached and the recommendations provided in this report. The
Department's corrective actions, taken and planned, were fully responsive to our findings and
recommendations. The Department's comments are provided in Appendix 3.

We also received informal comments from Bonneville that were submitted through the
Department. Bonneville indicated support for the recommendations and stated that it deeply
regretted the errors that had occurred, and was committed to fully and promptly rectifying those
errors. However, Bonneville disagreed with certain findings and conclusions of the report. For
instance, in reference to the finding related to restrictive selection criteria, Bonneville stated that
the report erroneously implied that a veteran must be hired notwithstanding the hiring official's
good-faith determination that the veteran was not qualified for the position. However, the fact
pattern in this case indicates bypass of the veteran was considered, dismissed, and followed by
targeted revision of the vacancy announcement so the veteran would no longer qualify.
Further, Bonneville stated that its delegated authority from the Secretary allows it to evaluate
Department directives, including those related to human resources, for applicability and, when
deemed appropriate, exclusion. However, Bonneville's comments did not appear to take into
account the fact that its personnel authority is delegated from the Director, Human Capital
Management, and not from the Secretary. In accepting the delegation, Bonneville specifically
acknowledges, and the Department's Office of the General Counsel has opined, it is bound by
all the requirements of the delegation, without exception. We would also note that given the
situation Bonneville currently finds itself in, its insular approach to human resources
management has not served it well and its ability to self-regulate is questionable.

In addition, Bonneville stated that it is inappropriate to suggest that Bonneville could have
obtained a hiring system for considerably less cost and that Bonneville had not performed its
due dillegence in evaluating the options before it selected its vendor. While we acknowledge
that Bonneville has documentation to support its decision to procure with a particular vendor, it
still did not consider in its price analysis the option of using the Department's hiring system,
which we concluded would have been less costly.

Also, Bonneville officials who provided the informal comments stated that, while they did not
have access to all the correspondence and discussion between the Deputy Secretary and
Bonneville senior executives, it appeared that the proposed action to remove an HCM staff
member occurred before the direction not to take adverse action. Bonneville did not believe the
action taken against the HCM staff member was retaliatory or adverse, and noted that the report
falsely implied insubordination in regard to this issue. However, we would note a proposal to
take adverse action is an initial stage and is still adverse. Per interviews, we have determined
key Bonneville officials, who were aware of the action against this particular employee, had
knowledge of the Deputy Secretary's direction relating to "no retaliation" no later than early June
2013, which is clearly before the proposal to remove the employee was made in July 2013.
Although Bonneville attempted to support the proposal for removal based on performance issues,
we concluded that this disciplinary action against the employee amounted to retaliation.



Page 23                                              Management Reaction and OIG Response
With regard to the other case where there was a proposed action to remove an HCM staff
member, Bonneville asserted that the report misstated that the action was taken because the
individual manipulated the category rating process. Contrary to Bonneville's comment, the
proposal for removal stated that the individual "used poor judgment by improperly excluding a
veteran from consideration for hiring." This occurred when the employee adjusted the best
qualified category as permitted by Bonneville's informal category rating practice. Bonneville
also asserted that, unlike others, the individual improperly shredded records to conceal the
employee's actions and disregarded management directions. However, Bonneville's comments
do not take into account the fact that Bonneville had no policy in place regarding destruction of
non-applicable hiring records by HCM staff members. Further, HCM officials told us that after
the problems with category rating came to their attention they directed the employee to correct
the case file. They also noted that they did not give the employee a preservation order to retain
original case file documents that were no longer applicable.
We made changes to the report to address these as well as other Bonneville comments where
appropriate.




Page 24                                           Management Reaction and OIG Response
Appendix 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The Office of Inspector General received a complaint alleging prohibited personnel practices at
Bonneville Power Administration (Bonneville). The allegations included violations of U.S.
Office of Personnel Management regulations, inappropriate dismissal of veterans, as well as
alleged violations of Department of Energy (Department) policies regarding the application of
veterans' preference and the use of the category rating process in the exercise of Bonneville's
delegated examining authority for competitive hiring. Given the seriousness of the complaint,
we initiated a special inquiry to determine the facts and circumstances surrounding the
allegations of prohibited personnel practices.

SCOPE

We conducted our inspection fieldwork from April 2013 to September 2013, at Bonneville in
Portland, Oregon and at Department Headquarters in Washington, DC.

METHODOLOGY

To accomplish the inquiry objective, we:

   •   Reviewed relevant laws and regulations;

   •   Reviewed relevant Department and Bonneville policies and procedures relating to human
       capital activities;

   •   Interviewed key personnel at Bonneville and the Department's Office of the Chief Human
       Capital Officer; and

   •   Reviewed relevant Bonneville management and Human Capital Management staff e-
       mails and related documentation.

This inquiry was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our inspection objective.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions
based on our inspection objective. The inspection included tests of controls and compliance with
laws and regulations to the extent necessary to satisfy the inspection objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our inspection. Finally, we relied on computer-processed data, to
some extent, to satisfy our objective. However, as noted in our report, we determined there were


Page 25                                                    Objective, Scope and Methodology
Appendix 1 (continued)
integrity issues with the data provided by Bonneville. These integrity issues limited our use of
the data and prevented us from developing ,with certainty, comprehensive statistics on the extent
of the inappropriate and prohibited practices.

The Department waived the exit conference.




Page 26                                                   Objective, Scope and Methodology
Appendix 2
                                        APPENDIX 2

                                      PRIOR REPORT

  •   Audit Report on Allegations Regarding Prohibited Personnel Practices at the Bonneville
      Power Administration (DOE/IG-0891, July 2013). In June 2012, the Office of Inspector
      General received an anonymous complaint alleging prohibited personnel practices at
      Bonneville Power Administration (Bonneville). Based on our work to date, we have
      reached a preliminary conclusion that Bonneville engaged in a number of prohibited
      personnel practices. Notably, Bonneville's hiring practices appeared to have effectively
      disadvantaged veterans and other applicants. Such action was inconsistent with
      concerted efforts by the Federal government to ensure that veterans received appropriate
      preferential treatment in the hiring process. Equally concerning and the primary reason
      for the urgency of the management alert, Bonneville has apparently proposed or recently
      executed a number of personnel actions against certain employees who have cooperated
      with our review. These actions have a potentially chilling effect on various aspects of our
      work and, as such, jeopardize our ability to effectively complete our review of the
      circumstances surrounding inappropriate Bonneville hiring practices. The Department of
      Energy's (Department) comments were responsive to our recommendations. Notably, the
      Department initiated immediate corrective actions.




Page 27                                                                            Prior Report
Appendix 3


             MANAGEMENT COMMENTS




Page 28                            Management Comments
Appendix 3 (continued)




Page 29                  Management Comments
Appendix 3 (continued)




Page 30                  Management Comments
Appendix 3 (continued)




Page 31                  Management Comments
                                                                   IG Report No. DOE/IG-0895


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


   Name                                       Date

Telephone                                     Organization

   When you have completed this form, you may telefax it to the Office of Inspector General at
   (202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
